                      Limited Official Use




      Security Controls for the Counsel Automated
      System Environment Management Information
               System Could Be Improved

                        February 2005

              Reference Number: 2005-20-036




The Treasury Inspector General for Tax Administration
(TIGTA) has designated this audit report as Limited
Official Use (LOU) pursuant to Chapter III, Section 2 of
the Treasury Security Manual (TD P 71-10) entitled,
“Limited Official Use Information and Other Legends.”
Because this document has been designated LOU, it
may only be made available to those officials that have a
need to know the information contained within this
report in the performance of their official duties. This
report must be safeguarded and protected from
unauthorized disclosure; therefore, all requests for
disclosure of this report must be referred to the
Disclosure Section within the TIGTA’s Office of Chief
Counsel.




                      Limited Official Use
                                    Limited Official Use
           Security Controls for the Counsel Automated System Environment
                  Management Information System Could Be Improved

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Gerald Horn, Audit Manager
Dan Ardeleano, Senior Auditor
Jody Kitazono, Senior Auditor
William Lessa, Senior Auditor




                                    Limited Official Use                            Page 2
